<html>
<title> - H.R. 2458 AND S. 803, THE E-GOVERNMENT ACT OF 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





           H.R. 2458 AND S. 803, THE E-GOVERNMENT ACT OF 2002

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TECHNOLOGY AND PROCUREMENT POLICY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                          H.R. 2458 AND S. 803

   TO ENHANCE THE MANAGEMENT AND PROMOTION OF ELECTRONIC GOVERNMENT 
    SERVICES AND PROCESSES BY ESTABLISHING AN OFFICE OF ELECTRONIC 
     GOVERNMENT WITHIN THE OFFICE OF MANAGEMENT AND BUDGET, AND BY 
ESTABLISHING A BROAD FRAMEWORK OF MEASURES THAT REQUIRE USING INTERNET-
 BASED INFORMATION TECHNOLOGY TO ENHANCE CITIZEN ACCESS TO GOVERNMENT 
            INFORMATION AND SERVICES, AND FOR OTHER PURPOSES

                               __________

                           SEPTEMBER 18, 2002

                               __________

                           Serial No. 107-184

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

86-062              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

           Subcommittee on Technology and Procurement Policy

                  THOMAS M. DAVIS, Virginia, Chairman
JO ANN DAVIS, Virginia               JIM TURNER, Texas
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
DOUG OSE, California                 PATSY T. MINK, Hawaii
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
              Victoria Proctor, Professional Staff Member
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2002...............................     1
    Texts of H.R. 2458 and S. 803................................     6
Statement of:
    Everson, Mark W., Deputy Director for Management, Office of 
      Management and Budget; Linda Koontz, Director of 
      Information Management, General Accounting Office; Mark 
      Forman, E-Government Administrator, Office of Management 
      and Budget; Pat McGinnis, president, Council for Excellence 
      in Government; Thomas Gann, vice president of government 
      relations, Siebel Systems; and Roger Baker, executive vice 
      president, CACI............................................   188
Letters, statements, etc., submitted for the record by:
    Baker, Roger, executive vice president, CACI, prepared 
      statement of...............................................   241
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     3
    Everson, Mark W., Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............   190
    Gann, Thomas, vice president of government relations, Siebel 
      Systems, prepared statement of.............................   235
    Koontz, Linda, Director of Information Management, General 
      Accounting Office, prepared statement of...................   203
    McGinnis, Pat, president, Council for Excellence in 
      Government, prepared statement of..........................   228
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................   186

 
           H.R. 2458 AND S. 803, THE E-GOVERNMENT ACT OF 2002

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2002

                  House of Representatives,
 Subcommittee on Technology and Procurement Policy,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Tom Davis of Virginia, Jo Ann 
Davis of Virginia, and Turner.
    Staff present: Melissa Wojciak, staff director; George 
Rogers, Uyen Dinh, and John Brosnan, counsels; Victoria Proctor 
and Teddy Kidd, professional staff members; Ryan Voccola, 
intern; David McMillen and Mark Stephenson, minority 
professional staff members; and Jean Gosa, minority assistant 
clerk.
    Mr. Davis. Good afternoon. We are going to start with 
opening statements. I am going to put my entire statement in 
the record and try to be quick. We may have a series of votes 
shortly, and I want to move through this as quickly as we can.
    Today's legislative hearing is on S. 803 and H.R. 2458, the 
Electronic Government Act of 2002. Both of these pieces of 
legislation attempt to establish a new framework for managing 
the Federal Government's information resources. Both create a 
new position within OMB to centralize and coordinate 
information management, and both bills authorize a number of 
programs to promote or establish E-government within the 
Federal Government.
    For the last 20 years, the management of Federal 
information resources has been governed by a set of laws 
directing specific information functions, and one law, the 
Paperwork Reduction Act, which is intended to tie them together 
in a coordinated approach to information resources management. 
Under that law, which is in effect today, OMB's Office of 
Information and Regulatory Affairs is responsible for 
overseeing Federal agency information activities, including 
information technology management. There have been many 
complaints about OIRA and agency information resource 
management. S. 803 does not address OIRA's job. Instead, it 
carves out pieces of the information management puzzle and 
identifies it as electronic government, and gives it to a newly 
created OMB Office of E-Government. If this bill becomes law, 
Congress will have created two overlapping information 
management structures. The subcommittee will review the 
effectiveness of creating such a structure, and will seek 
whether or not we should examine current law in order to assist 
agencies in the complex task of information management.
    While the government continues to be the largest purchaser 
worldwide of IT products, it is uncertain whether or not the 
government is receiving its return on investment. According to 
the JFK School of Government at Harvard, over 45 percent of the 
government's IT projects fail. Recognizing these ongoing 
management challenges, the President appointed Mark Forman, 
Administrator of E-Government at OMB, to lead a more centrally 
coordinated approach to IT investment and the deployment of E-
Government services to citizens. S. 803, if passed by the 
Senate, will codify this new management structure for e-
government, but it does make the position Senate-confirmed; it 
currently is not. The subcommittee will review the current 
structure of the e-government Administrator and ascertain if 
this is the appropriate management solution for the IT 
challenges facing the Federal Government.
    I want to thank Senator Lieberman and Congressman Turner 
for their work on this legislation to date. I look forward to 
working with both of them and with the administration on a 
comprehensive information management bill that addresses the 
government's need for more centralized and coordinated 
management.
    I would now yield to the ranking member of the subcommittee 
for any comments he may wish to make.
    [The prepared statement of Hon. Tom Davis and the texts of 
H.R. 2458 and S. 803 follow:]

[GRAPHIC] [TIFF OMITTED] T6062.001

[GRAPHIC] [TIFF OMITTED] T6062.002

[GRAPHIC] [TIFF OMITTED] T6062.003

[GRAPHIC] [TIFF OMITTED] T6062.052

[GRAPHIC] [TIFF OMITTED] T6062.053

[GRAPHIC] [TIFF OMITTED] T6062.054

[GRAPHIC] [TIFF OMITTED] T6062.055

[GRAPHIC] [TIFF OMITTED] T6062.056

[GRAPHIC] [TIFF OMITTED] T6062.057

[GRAPHIC] [TIFF OMITTED] T6062.058

[GRAPHIC] [TIFF OMITTED] T6062.059

[GRAPHIC] [TIFF OMITTED] T6062.060

[GRAPHIC] [TIFF OMITTED] T6062.061

[GRAPHIC] [TIFF OMITTED] T6062.062

[GRAPHIC] [TIFF OMITTED] T6062.063

[GRAPHIC] [TIFF OMITTED] T6062.064

[GRAPHIC] [TIFF OMITTED] T6062.065

[GRAPHIC] [TIFF OMITTED] T6062.066

[GRAPHIC] [TIFF OMITTED] T6062.067

[GRAPHIC] [TIFF OMITTED] T6062.068

[GRAPHIC] [TIFF OMITTED] T6062.069

[GRAPHIC] [TIFF OMITTED] T6062.070

[GRAPHIC] [TIFF OMITTED] T6062.071

[GRAPHIC] [TIFF OMITTED] T6062.072

[GRAPHIC] [TIFF OMITTED] T6062.073

[GRAPHIC] [TIFF OMITTED] T6062.074

[GRAPHIC] [TIFF OMITTED] T6062.075

[GRAPHIC] [TIFF OMITTED] T6062.076

[GRAPHIC] [TIFF OMITTED] T6062.077

[GRAPHIC] [TIFF OMITTED] T6062.078

[GRAPHIC] [TIFF OMITTED] T6062.079

[GRAPHIC] [TIFF OMITTED] T6062.080

[GRAPHIC] [TIFF OMITTED] T6062.081

[GRAPHIC] [TIFF OMITTED] T6062.082

[GRAPHIC] [TIFF OMITTED] T6062.083

[GRAPHIC] [TIFF OMITTED] T6062.084

[GRAPHIC] [TIFF OMITTED] T6062.085

[GRAPHIC] [TIFF OMITTED] T6062.086

[GRAPHIC] [TIFF OMITTED] T6062.087

[GRAPHIC] [TIFF OMITTED] T6062.088

[GRAPHIC] [TIFF OMITTED] T6062.089

[GRAPHIC] [TIFF OMITTED] T6062.090

[GRAPHIC] [TIFF OMITTED] T6062.091

[GRAPHIC] [TIFF OMITTED] T6062.092

[GRAPHIC] [TIFF OMITTED] T6062.093

[GRAPHIC] [TIFF OMITTED] T6062.094

[GRAPHIC] [TIFF OMITTED] T6062.095

[GRAPHIC] [TIFF OMITTED] T6062.096

[GRAPHIC] [TIFF OMITTED] T6062.097

[GRAPHIC] [TIFF OMITTED] T6062.098

[GRAPHIC] [TIFF OMITTED] T6062.099

[GRAPHIC] [TIFF OMITTED] T6062.100

[GRAPHIC] [TIFF OMITTED] T6062.101

[GRAPHIC] [TIFF OMITTED] T6062.102

[GRAPHIC] [TIFF OMITTED] T6062.103

[GRAPHIC] [TIFF OMITTED] T6062.104

[GRAPHIC] [TIFF OMITTED] T6062.105

[GRAPHIC] [TIFF OMITTED] T6062.106

[GRAPHIC] [TIFF OMITTED] T6062.107

[GRAPHIC] [TIFF OMITTED] T6062.108

[GRAPHIC] [TIFF OMITTED] T6062.109

[GRAPHIC] [TIFF OMITTED] T6062.110

[GRAPHIC] [TIFF OMITTED] T6062.111

[GRAPHIC] [TIFF OMITTED] T6062.112

[GRAPHIC] [TIFF OMITTED] T6062.113

[GRAPHIC] [TIFF OMITTED] T6062.114

[GRAPHIC] [TIFF OMITTED] T6062.115

[GRAPHIC] [TIFF OMITTED] T6062.116

[GRAPHIC] [TIFF OMITTED] T6062.117

[GRAPHIC] [TIFF OMITTED] T6062.118

[GRAPHIC] [TIFF OMITTED] T6062.119

[GRAPHIC] [TIFF OMITTED] T6062.120

[GRAPHIC] [TIFF OMITTED] T6062.121

[GRAPHIC] [TIFF OMITTED] T6062.122

[GRAPHIC] [TIFF OMITTED] T6062.123

[GRAPHIC] [TIFF OMITTED] T6062.124

[GRAPHIC] [TIFF OMITTED] T6062.125

[GRAPHIC] [TIFF OMITTED] T6062.126

[GRAPHIC] [TIFF OMITTED] T6062.127

[GRAPHIC] [TIFF OMITTED] T6062.128

[GRAPHIC] [TIFF OMITTED] T6062.129

[GRAPHIC] [TIFF OMITTED] T6062.130

[GRAPHIC] [TIFF OMITTED] T6062.131

[GRAPHIC] [TIFF OMITTED] T6062.132

[GRAPHIC] [TIFF OMITTED] T6062.133

[GRAPHIC] [TIFF OMITTED] T6062.134

[GRAPHIC] [TIFF OMITTED] T6062.135

[GRAPHIC] [TIFF OMITTED] T6062.136

[GRAPHIC] [TIFF OMITTED] T6062.137

[GRAPHIC] [TIFF OMITTED] T6062.138

[GRAPHIC] [TIFF OMITTED] T6062.139

[GRAPHIC] [TIFF OMITTED] T6062.140

[GRAPHIC] [TIFF OMITTED] T6062.141

[GRAPHIC] [TIFF OMITTED] T6062.142

[GRAPHIC] [TIFF OMITTED] T6062.143

[GRAPHIC] [TIFF OMITTED] T6062.144

[GRAPHIC] [TIFF OMITTED] T6062.145

[GRAPHIC] [TIFF OMITTED] T6062.146

[GRAPHIC] [TIFF OMITTED] T6062.147

[GRAPHIC] [TIFF OMITTED] T6062.148

[GRAPHIC] [TIFF OMITTED] T6062.149

[GRAPHIC] [TIFF OMITTED] T6062.150

[GRAPHIC] [TIFF OMITTED] T6062.151

[GRAPHIC] [TIFF OMITTED] T6062.152

[GRAPHIC] [TIFF OMITTED] T6062.153

[GRAPHIC] [TIFF OMITTED] T6062.154

[GRAPHIC] [TIFF OMITTED] T6062.155

[GRAPHIC] [TIFF OMITTED] T6062.156

[GRAPHIC] [TIFF OMITTED] T6062.157

[GRAPHIC] [TIFF OMITTED] T6062.158

[GRAPHIC] [TIFF OMITTED] T6062.159

[GRAPHIC] [TIFF OMITTED] T6062.160

[GRAPHIC] [TIFF OMITTED] T6062.161

[GRAPHIC] [TIFF OMITTED] T6062.162

[GRAPHIC] [TIFF OMITTED] T6062.163

[GRAPHIC] [TIFF OMITTED] T6062.164

[GRAPHIC] [TIFF OMITTED] T6062.165

[GRAPHIC] [TIFF OMITTED] T6062.166

[GRAPHIC] [TIFF OMITTED] T6062.167

[GRAPHIC] [TIFF OMITTED] T6062.168

[GRAPHIC] [TIFF OMITTED] T6062.169

[GRAPHIC] [TIFF OMITTED] T6062.170

[GRAPHIC] [TIFF OMITTED] T6062.171

[GRAPHIC] [TIFF OMITTED] T6062.172

[GRAPHIC] [TIFF OMITTED] T6062.173

[GRAPHIC] [TIFF OMITTED] T6062.174

[GRAPHIC] [TIFF OMITTED] T6062.175

[GRAPHIC] [TIFF OMITTED] T6062.176

[GRAPHIC] [TIFF OMITTED] T6062.177

[GRAPHIC] [TIFF OMITTED] T6062.178

[GRAPHIC] [TIFF OMITTED] T6062.179

[GRAPHIC] [TIFF OMITTED] T6062.180

[GRAPHIC] [TIFF OMITTED] T6062.181

[GRAPHIC] [TIFF OMITTED] T6062.182

[GRAPHIC] [TIFF OMITTED] T6062.183

[GRAPHIC] [TIFF OMITTED] T6062.184

[GRAPHIC] [TIFF OMITTED] T6062.185

[GRAPHIC] [TIFF OMITTED] T6062.186

[GRAPHIC] [TIFF OMITTED] T6062.187

[GRAPHIC] [TIFF OMITTED] T6062.188

[GRAPHIC] [TIFF OMITTED] T6062.189

[GRAPHIC] [TIFF OMITTED] T6062.190

[GRAPHIC] [TIFF OMITTED] T6062.191

[GRAPHIC] [TIFF OMITTED] T6062.192

[GRAPHIC] [TIFF OMITTED] T6062.193

[GRAPHIC] [TIFF OMITTED] T6062.194

[GRAPHIC] [TIFF OMITTED] T6062.195

[GRAPHIC] [TIFF OMITTED] T6062.196

[GRAPHIC] [TIFF OMITTED] T6062.197

[GRAPHIC] [TIFF OMITTED] T6062.198

[GRAPHIC] [TIFF OMITTED] T6062.199

[GRAPHIC] [TIFF OMITTED] T6062.200

[GRAPHIC] [TIFF OMITTED] T6062.201

[GRAPHIC] [TIFF OMITTED] T6062.202

[GRAPHIC] [TIFF OMITTED] T6062.203

[GRAPHIC] [TIFF OMITTED] T6062.204

[GRAPHIC] [TIFF OMITTED] T6062.205

[GRAPHIC] [TIFF OMITTED] T6062.206

[GRAPHIC] [TIFF OMITTED] T6062.207

[GRAPHIC] [TIFF OMITTED] T6062.208

[GRAPHIC] [TIFF OMITTED] T6062.209

[GRAPHIC] [TIFF OMITTED] T6062.210

[GRAPHIC] [TIFF OMITTED] T6062.211

[GRAPHIC] [TIFF OMITTED] T6062.212

[GRAPHIC] [TIFF OMITTED] T6062.213

[GRAPHIC] [TIFF OMITTED] T6062.214

[GRAPHIC] [TIFF OMITTED] T6062.215

[GRAPHIC] [TIFF OMITTED] T6062.216

[GRAPHIC] [TIFF OMITTED] T6062.217

[GRAPHIC] [TIFF OMITTED] T6062.218

[GRAPHIC] [TIFF OMITTED] T6062.219

[GRAPHIC] [TIFF OMITTED] T6062.220

[GRAPHIC] [TIFF OMITTED] T6062.221

[GRAPHIC] [TIFF OMITTED] T6062.222

[GRAPHIC] [TIFF OMITTED] T6062.223

[GRAPHIC] [TIFF OMITTED] T6062.224

[GRAPHIC] [TIFF OMITTED] T6062.225

[GRAPHIC] [TIFF OMITTED] T6062.226

[GRAPHIC] [TIFF OMITTED] T6062.227

[GRAPHIC] [TIFF OMITTED] T6062.228

[GRAPHIC] [TIFF OMITTED] T6062.229

[GRAPHIC] [TIFF OMITTED] T6062.230

    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing on H.R. 2458 and S. 803. These bills 
are companion pieces of legislation which was introduced in the 
Senate by Senator Lieberman, and I introduced it in the House.
    S. 803 is the result of the Senate action on the 
legislation which was reported unanimously out of Senate 
committee as I recall. And I'm very hopeful that we can move 
this bill along for further action. We all understand clearly 
the impact that information technology has had on our economy 
and our government, and this legislation has as its underlying 
purpose an effort to bring information technology to bear on 
the activities and functions of the Federal Government in a 
more effective and efficient way than we have been able to do 
in the past.
    I want to commend Chairman Davis for his attention to the 
issue and his hard work on this legislation as well as other 
bills that we have dealt with to try to promote the better 
utilization of information technology in our Federal 
Government.
    I am looking forward to hearing from our distinguished 
panel of witnesses today. One of our witnesses, Mark Forman, 
who is the Associate Director for Information Technology and e-
government in the Office of Management and Budget, will find in 
this legislation his position created statutorily. One of the 
primary efforts of this bill was to elevate the stature and the 
status of the individual in our government who would be in 
charge of implementing and employing information technology. 
And I appreciate the work that OMB did in negotiating 
provisions of the bill in the Senate which is before us as S. 
803.
    When it comes to information technology, effective use of 
the Internet, and other cutting-edge information resources, the 
Federal Government clearly continues to play catch-up with the 
private sector. It seems that we have been able to implement 
great advances in the private sector while our government 
continues to lag. And as a result, we are losing money in the 
Federal Government, we are wasting the time of millions of 
citizens who could be better served with a greater utilization 
of information technology and the delivery of government 
services, and most importantly, we have failed to provide the 
kind of effective government that we are capable of providing 
if we employ information technology.
    It is for those reasons that Senator Lieberman and I 
introduced this legislation. We are hopeful that it will move 
forward in the legislative process and provide great promise 
for improving the services of government to the American 
people.
    Again, I thank the chairman for holding the hearing on this 
bill, which was joined when we introduced it in the House by 38 
other cosponsors. Thank you, Mr. Chairman.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T6062.004
    
    [GRAPHIC] [TIFF OMITTED] T6062.005
    
    Mr. Tom Davis of Virginia. Mrs. Davis, any comment?
    OK. Well, we are going to proceed to our panelists at this 
point. I call our witnesses to testify: Ms. Koontz, Mr. Forman, 
Ms. McGinnis, Mr. Gann, Mr. Baker and Mr. Everson. As you know, 
it is the policy of this committee that all witnesses be sworn 
before they may testify. If you would rise with me and raise 
your right hand.
    [Witnesses sworn.]
    Mr. Tom Davis of Virginia. Thank you. You may be seated.
    Mark, I understand you may have to leave at 3 o'clock. Is 
that right?
    Mr. Everson. Yes, sir.
    Mr. Tom Davis of Virginia. Why don't we start with you, and 
then we will go with Ms. Koontz and move right down. And I 
think I will try to get everybody in, but if you have to leave 
before questions we will understand, and we'll just submit them 
to you later.
    So why don't we start with you, and then, Linda, we'll go 
to you, and then Mark, and go straight down. Thank you for 
being with us.

STATEMENTS OF MARK W. EVERSON, DEPUTY DIRECTOR FOR MANAGEMENT, 
  OFFICE OF MANAGEMENT AND BUDGET; LINDA KOONTZ, DIRECTOR OF 
INFORMATION MANAGEMENT, GENERAL ACCOUNTING OFFICE; MARK FORMAN, 
 E-GOVERNMENT ADMINISTRATOR, OFFICE OF MANAGEMENT AND BUDGET; 
PAT McGINNIS, PRESIDENT, COUNCIL FOR EXCELLENCE IN GOVERNMENT; 
  THOMAS GANN, VICE PRESIDENT OF GOVERNMENT RELATIONS, SIEBEL 
    SYSTEMS; AND ROGER BAKER, EXECUTIVE VICE PRESIDENT, CACI

    Mr. Everson. Thank you very much, Mr. Chairman and members 
of the committee. I think that you have already stated quite 
correctly in the two opening statements the importance of this 
legislation. I'm happy to comment on it.
    I would like to provide a little broader perspective about 
what we are trying to do within the administration. I think 
it's already covered in my statement, but as to the details of 
this whole area, obviously Mark is very competent to answer the 
questions. I am a little concerned that if we elevate his 
position, he will start to feel that he has to be held to an 
even higher standard and do even more than what he is doing 
today, which would be very hard, principally for me, to try to 
keep up with him.
    But the E-Government Initiative, as you know, it's a part 
of our overall President's management agenda. We feel that 
those five areas which we have identified within the 
administration as being central to good management and 
government are closely linked with strategic management and 
human capital, improved financial performance, competitive 
sourcing, budget and performance integration, and expanded e-
government. We are monitoring those centrally. They come out of 
my office as the Deputy Director for management at OMB. They 
are also very closely targeted and monitored within the 
President's Management Council, which I chair, which is the 
group of chief operating officers of the departments and major 
agencies.
    I think the E-Gov Initiative is off to a great start, 
largely through Mark's leadership, but with the help of the 
Congress and others who have identified the very real 
potential--largely unmet, as has been indicated just moments 
ago--up until this time in government.
    Some of the challenges that you are well aware of are 
working across agencies to eliminate redundant expenditures, to 
harness technology in a way that supports missions, and also to 
get it done, as I know the chairman knows, expeditiously 
through good procurement practices and other areas that help us 
make the government more efficient.
    We do support this legislation. We think it will provide a 
parity, if you will, to Mark's position that is important, 
along with the position I used to hold, that of Controller,and 
also that of Administrator for Procurement Policies held by 
Angela Styles. We do not, however, favor the Senate 
confirmation element of the proposal. We think that it's time 
to try and make executive branch appointees able to get on the 
job quicker. That whole process can be overly burdensome, delay 
the effectiveness of getting someone on the job, particularly 
in an area such as e-government where people coming from the 
private sector are used to fast-moving changes and not 6-month-
long processes. And for that reason, and also the fact that my 
own position is DDM, which would supervise this role if Senate 
confirmed. We think that we are covered on that base. That is 
really the principal reservation we would have about this area.
    I will leave my written statement.
    Mr. Tom Davis of Virginia. The entire statement will be 
made part of the record.
    Mr. Everson. Thank you.
    [The prepared statement of Mr. Everson follows:]

    [GRAPHIC] [TIFF OMITTED] T6062.006
    
    [GRAPHIC] [TIFF OMITTED] T6062.007
    
    [GRAPHIC] [TIFF OMITTED] T6062.008
    
    [GRAPHIC] [TIFF OMITTED] T6062.009
    
    [GRAPHIC] [TIFF OMITTED] T6062.010
    
    [GRAPHIC] [TIFF OMITTED] T6062.011
    
    [GRAPHIC] [TIFF OMITTED] T6062.012
    
    [GRAPHIC] [TIFF OMITTED] T6062.013
    
    [GRAPHIC] [TIFF OMITTED] T6062.014
    
    [GRAPHIC] [TIFF OMITTED] T6062.015
    
    [GRAPHIC] [TIFF OMITTED] T6062.016
    
    Mr. Tom Davis of Virginia. Ms. Koontz.
    Ms. Koontz. Mr. Chairman, members of the subcommittee, 
thank you for inviting us to participate in today's hearing on 
S. 803, E-Government Act of 2002. In my remarks today I would 
like to briefly comment on some of the key provisions of the 
bill.
    As you know, the Federal Government faces many challenges 
in effectively managing information resources and technology, 
including improving the collection, use, and dissemination of 
government information, strengthening privacy and information 
security, and developing IT human capital strategies as 803 
focuses on the critical goal of enhancing the management and 
promotion of e-government.
    To accomplish this goal, the bill's provisions address many 
of these challenges. For example, the bill would make 
government information better organized and more accessible to 
the public through a variety of means, including establishing 
an interagency committee to study these issues and make 
recommendations to OMB. At the same time, the bill recognizes 
that over 40 percent of the households in America are now 
connected to the Internet, and includes provisions to ensure 
that access to government information is not diminished for 
these citizens.
    The bill would also protect privacy by requiring agencies 
to perform privacy impact assessments. This requirement would 
provide a much-needed focus on privacy implications of 
collecting personal information, and could help ensure that the 
government collects only that personal information that it 
needs.
    The bill would also improve information security by 
repealing the expiration of the Government Information Security 
Reform Act, which, based on first-year implementation, has 
proven to be a significant step in improving agencies' security 
programs and addressing weaknesses.
    In addition, Mr. Chairman, we note that the bill you 
introduced, the Federal Information Security Management Act of 
2002, also reauthorizes GSRA, and contains a number of changes 
that would further strengthen information security.
    The bill would also address the critical issue of IT human 
capital needs by requiring OPM and others to analyze the 
government's personnel needs, oversee training, and assess the 
training of Federal employees in IT disciplines. This 
requirement is consistent with our prior work that has found 
that leading organizations identify IT skills, determine needed 
future skills, and determine the right skill mix.
    S. 803 would also establish an Office of Electronic 
Government within OMB, headed by an Administrator appointed by 
the President with the advice and consent of the Senate. The 
Administrator would oversee implementation of the bill's 
provisions and other e-government initiatives. A strength of 
this approach is that it would provide the benefit of putting a 
high-level executive within OMB to focus full time on e-
government activities. However, a complicating factor is that 
the Federal Government's information resources and technology 
management leadership would be shared between two offices, the 
proposed new office and OMB's Office of Information and 
Regulatory Affairs, which, under the Paperwork Reduction Act, 
has existing responsibilities for these areas.
    One alternative is to create a single position devoted 
exclusively to the full range of information resources and 
technology management functions. There are various ways to 
accomplish this. One approach would be to establish a Federal 
Chief Information Officer. Such a position could help address 
the many challenges facing the government for effectively 
implementing e-government and other major IT initiatives. 
Nonetheless, this bill is an important step toward addressing 
these issues.
    That concludes my statement.
    Mr. Tom Davis of Virginia. Thank you very much.
    [The prepared statement of Ms. Koontz follows:]

    [GRAPHIC] [TIFF OMITTED] T6062.017
    
    [GRAPHIC] [TIFF OMITTED] T6062.018
    
    [GRAPHIC] [TIFF OMITTED] T6062.019
    
    [GRAPHIC] [TIFF OMITTED] T6062.020
    
    [GRAPHIC] [TIFF OMITTED] T6062.021
    
    [GRAPHIC] [TIFF OMITTED] T6062.022
    
    [GRAPHIC] [TIFF OMITTED] T6062.023
    
    [GRAPHIC] [TIFF OMITTED] T6062.024
    
    [GRAPHIC] [TIFF OMITTED] T6062.025
    
    [GRAPHIC] [TIFF OMITTED] T6062.026
    
    [GRAPHIC] [TIFF OMITTED] T6062.027
    
    [GRAPHIC] [TIFF OMITTED] T6062.028
    
    [GRAPHIC] [TIFF OMITTED] T6062.029
    
    [GRAPHIC] [TIFF OMITTED] T6062.030
    
    [GRAPHIC] [TIFF OMITTED] T6062.031
    
    [GRAPHIC] [TIFF OMITTED] T6062.032
    
    [GRAPHIC] [TIFF OMITTED] T6062.033
    
    [GRAPHIC] [TIFF OMITTED] T6062.034
    
    [GRAPHIC] [TIFF OMITTED] T6062.035
    
    [GRAPHIC] [TIFF OMITTED] T6062.036
    
    Mr. Tom Davis of Virginia. Mr. Forman.
    Mr. Forman. Mr. Chairman, Mr. Turner, Ms. Davis, thank you 
for your leadership in making the Federal Government an e-
government. I recognize and respect that your efforts predate 
my return to government last year, and I would also like to 
recognize Senators Thompson and Lieberman for their leadership 
in e-government.
    We are pleased today to inform you of some of our progress 
in electronic government as well as comment on S. 803. Recent 
studies show that the Internet has become the primary channel 
between citizens and government. Similarly, -e-business has 
become the primary way organizations improve their 
effectiveness and efficiency. For e-government a strategic 
question is how do we leverage the more than $50 billion we 
invest each year to make government more citizen-centered and 
results-oriented.
    The government uses modern secure technologies to make 
government respond faster and better to the needs of citizens. 
And e-government agencies use e-business tools to lessen 
paperwork burdens and enable all levels of government--local, 
State, and Federal--to work together. As e-government deploys, 
conducting business with government becomes easier, more 
private, and more secure. Citizens should need no more than 
three clicks of a mouse to get what they want.
    Achieving this vision requires agencies to integrate and 
simplify their operations while addressing six chronic problems 
described in our written statement: paving cow paths, redundant 
buying, inadequate program management, poor modernization 
blueprints, islands of automation, and poor IT security.
    As OMB's Associate Director for IT and E-Government, I've 
led the work to achieve the President's e-government vision. 
Twenty-four cross-agency e-government initiatives were selected 
on the basis of the value that they would bring to citizens, 
while generating cost savings or improving the effectiveness of 
government. Agencies have since identified additional 
opportunities for using e-government to work across boundaries, 
to improve performance, and reduce costs.
    Significant progress has been made on e-government 
initiatives. I have a long list in the written testimony, but 
for a few examples: GovBenefits.gov provides access to 
information and services of 110 government programs from 11 
Federal agencies representing more than $1 trillion in annual 
benefits. The government online learning center, golearn.gov, 
is the first milestone of the e-training initiative, and has 
provided over a million training courses and e-books to Federal 
employees since its launch in July. The improved FirstGov Web 
site selected by Yahoo is one of the 50 most incredibly useful 
Web sites and now provides government services within three 
clicks of your mouse as well as easy navigation and better 
search capabilities.
    EZ Tax Filing recently announced a unique private/public 
partnership to provide citizens easy, secure, free 
opportunities to prepare and file their taxes via the Internet. 
And recruitment One Stop, expanding the existing capabilities 
of the USAJobs.gov Web site to provide a one-stop streamlined 
Federal employment application processes, improve service 
delivery to job applicants, and enhance the government's 
position as a competitor for top pound. Indeed, the new Web 
site hosted the virtual IT Job Fair, which was initiated in 
response to the chairman's request in that hearing of the 
subcommittee late last year.
    One of the most significant findings to emerge from the E-
Government Initiative came from a review of the Federal 
Government's enterprise architecture. The purpose of this 
effort was to identify opportunities to simplify processes and 
unify work across the agencies and within the many lines of 
business of the Federal Government. The foundation is the 
business reference model which describes the government's lines 
of business and its services to citizens, independent of the 
agencies and offices involved. The outcome of our efforts in 
the Federal enterprise architecture will be a more citizen-
centered and customer-focused government that maximizes 
technology investments to better achieve mission outcomes.
    Separate agency appropriations for e-government make it 
difficult to budget for, fund, and manage cross-agency 
projects. To help overcome this barrier, the President included 
in his fiscal year 2003 budget proposal a $100 million e-
government fund for innovative inner-agency project. The fund 
the President proposes leverages cross-agency work in e-
government and improves citizens' ability to access Federal 
services and Federal information online. We have made great 
strides in implementing this fund in 2002. Our intent for 2003 
is to fund cross-agency initiatives that achieve consolidation 
of redundant IT investments.
    We are pleased that S. 803 matches both the amounts 
proposed by the President's budget for fiscal year 2003 and 
2004. Currently, however, the appropriations bill passed by the 
Senate Treasury-Postal Appropriations Committee also provides 
$45 million in fiscal year 2003, while the companion 
legislation in the House stands at just $5 million. Fully 
funding the administration's request as authorized by S. 803 is 
critical to achieving the promise of e-government.
    We look forward to working with both the authorizing 
appropriations committee to provide for full funding. We 
believe that S. 803 as passed by the Senate Committee on 
Governmental Affairs is much improved, as Mark indicated. We 
are especially supportive of the alignment of several of the 
activities' initiatives of the bill with the administration to 
further e-government. We also support S. 803's strong 
discussion of the importance of privacy.
    The Senate's e-government bill also reauthorizes the 
Government Information Security Reform Act. The first report to 
Congress under that statute established a baseline, and 
agencies have developed plans of actions and milestones to 
close the security performance gap. Moreover, OMB has 
integrated this into the budget process.
    Mr. Chairman, your leadership in the development of FISMA 
clearly indicates that we agree on this critical priority. The 
administration looks forward to working with the House to 
address final issues and secure enactment. However, we have a 
concern with one element of the version of FISMA that was 
attached to H.R. 5005, the House homeland security bill. We 
have discussed this issue with the subcommittee staff and look 
forward to your leadership in restoring the original language.
    Mr. Tom Davis of Virginia. Thank you very much.
    Pat, we have a vote on the floor. We probably have a 
couple. I'll wait until the end of this one. So I'm going to 
recess the meeting, and we will get back as quickly as we can.
    Mark, we are probably not going to be back in time to get 
to you, so you can probably head out. We appreciate your being 
here.
    Look forward to hearing the testimony of you and Mr. Gann 
and Mr. Baker in just a few minutes. So we will recess the 
meeting, go over and vote and come back. Thank you.
    [Recess.]
    Mr. Davis of Virginia. The hearing will reconvene, and we 
will proceed with Ms. McGinnis. Thank you for being here. Thank 
you for your patience.
    Ms. McGinnis. Thank you, Mr. Chairman.
    I want to join Mark in commending you for your leadership 
in promoting E-government and also to commend the Senate 
committee as well.
    At the Council for Excellence in Government, as you know 
well, we think about this ambitious mission both in terms of 
excellent performance and also in terms of the American 
people's understanding, participation and trust in government. 
So we chose e-government as a strategic priority because we see 
the potential it has to break down bureaucratic barriers and 
leap ahead to a level of service protection and connection that 
the American people want and need.
    I would like to introduce you to someone I think you 
already know, Dave McClure, who has joined the Council as our 
Vice President for E-government. And so we----
    Mr. Davis of Virginia. Is that an elected position or an 
appointed position?
    Ms. McGinnis. It is not Senate confirmed, and so we were 
able to do this----
    Mr. Davis of Virginia. We could put it into our 
legislation.
    Ms. McGinnis [continuing]. And so we were able to do it in 
a much faster time.
    As you know, early last year the Council released a 
blueprint that we call E-government: The Next American 
Revolution. I know you know it, Mr. Davis, because you were 
with us when we released that. It was developed through an 
initiative that involved 350 leaders from government, business, 
civic groups and the research community.
    We put together a set of guiding principles to help frame 
choices; and our recommendations focused on leadership, the 
creation of a strategic investment fund, collaboration, 
insuring an adequate and well-trained work force for e-
government, privacy, security, interoperability, access and 
education. We are very pleased that all of these issues are 
addressed in S. 803 which, in our view, provides a very 
valuable framework for building e-government. So my main 
message today is to urge you to complete your work on this bill 
so it can be enacted during this Congress.
    Because we have focused so much on the perspective of the 
American people on the potential of e-government, we have 
organized over the past few years a series of public opinion 
polls conducted by Peter Hart and Bob Teeter to help us 
understand that so that this could be citizen centered and 
results oriented, as Mark Forman said.
    The most recent poll was released last February and 
provides some important insights. You can look at all of the 
findings, but let me just highlight a few.
    First of all, e-government has gone mainstream. More than 
half of the American people are visiting government Web sites, 
56 percent; and that number is 76 percent of all Internet 
users.
    They are very positive about the potential for e-
government, particularly as it relates to homeland security and 
better integrating the collection and use of the data that we 
need to protect us.
    The--people are concerned about security and privacy, 
especially identity theft and hackers getting access to 
information. A large number of--a majority of people say they 
are willing to give up some privacy if it strengthens homeland 
security.
    We have also surveyed government leaders at the Federal, 
State and local level and, again, a large majority are very 
positive about the potential of e-government and the effect it 
can have on how government operates. And most, 62 percent want 
to proceed quickly, rather than deliberately and slowly, to 
expand e-government.
    So we think that S. 803 is a big step in the right 
direction in terms of creating an Office of Electronic 
Government, particularly, and the creation of the e-government 
fund for the very important cross-agency initiatives that will 
glue this together and create the kind of e-government platform 
that we need.
    We have a few suggestions for strengthening the legislation 
which I have included in my testimony and won't go into detail 
because they are fairly minor suggestions.
    I guess, again, the main message is, in the interest of 
time, we hope that you will be able to move this legislation.
    One suggestion that I will highlight is that we think it 
would be useful in this bill to set a specific goal of 
universal on-line access to government within, say, 5 years, 
building on the NSF study that's authorized in the bill. And it 
may be advisable to call for that study within 1 year and 
involve the Census Bureau, other Federal agencies, the private 
sector and civic groups to determine specifically what it will 
take to achieve the goal of universal access within 5 years.
    Another suggestion that I would like to highlight is the 
suggestion that we also made in the Senate, and that is that 
you authorize a Congressional Office of E-government. This bill 
calls for an Office of E-government in the executive branch.
    You also suggest bringing the judicial system on-line, and 
we think it would be very helpful as well to bring the whole 
legislative process more directly to the American people with 
the help of a congressional resource and that would be to 
provide assistance to individual Members, to committees, not 
only to make this connection but also to advise about the use 
of E-government as a policy, as a tool to achieve the policy 
objectives that you seek.
    I would also like to challenge you to give, beyond this 
legislation, serious attention to the more flexible 
appropriation of funds for e-government. Because the biggest 
barrier we see to realizing the potential that's there is the 
lack of collaboration across departments and agencies among 
levels of government and, frankly, across congressional 
committees as well, perhaps joint hearings or meeting with the 
Appropriations Committee to look at models for flexible funding 
to consider how to not only encourage but perhaps even require 
greater collaboration across agencies in underwriting the 
infrastructure of e-government.
    So I appreciate very much--I thank you, Mr. Turner, for 
introducing this bill and your leadership on this issue. Thank 
you for including me, and I'll look forward to the discussion.
    Mr. Turner [presiding]. Thank you, Ms. McGinnis; and thank 
you for your excellent suggestions.
    [The prepared statement of Ms. McGinnis follows:]

    [GRAPHIC] [TIFF OMITTED] T6062.037
    
    [GRAPHIC] [TIFF OMITTED] T6062.038
    
    [GRAPHIC] [TIFF OMITTED] T6062.039
    
    [GRAPHIC] [TIFF OMITTED] T6062.040
    
    [GRAPHIC] [TIFF OMITTED] T6062.041
    
    Mr. Turner. Next, the Chair would recognize Mr. Gann, who 
is with Siebel Systems, and I believe is here on behalf of the 
Information Technology Industry Council, if I am correct.
    Mr. Gann. Right.
    Mr. Turner. Thank you.
    Mr. Gann. Congressman Turner, I'd like to thank you on 
behalf of the Information Technology Industry Council and also 
Siebel Systems.
    Is that better now? OK.
    I'd like to thank you for welcoming us here.
    The Information Technology Industry Council very much looks 
forward to sharing its views regarding the importance of 
establishing e-government as the central tenet for transforming 
the role of government as we move into the 21st century. We 
applaud the vital role being played by this committee and its 
members as leading advocates of e-government and look forward 
to working with you to help achieve a successful 
transformation.
    A little bit about Siebel Systems. We were founded in 1993. 
We're a leading provider today of e-government and e-business 
solutions. We enable corporations and public sector 
institutions to sell to, market to and serve customers across 
multiple channels and various lines of business. Today, we're a 
$2 billion business.
    Today, aging populations, declining government revenues and 
rising expectations of government performance are colliding to 
dramatically increase the pressure for change within 
government. Government institutions at every level are facing 
unprecedented demands to improve the quality of service they 
provide. Increasingly, governments have responded with 
initiatives to modernize government through the acquisition and 
deployment of information technologies. While the resulting 
gains in productivity have been substantial, it has become 
increasingly clear that the mere accumulation of high-tech 
tools is not sufficient to address the many challenges outlined 
above. Rather, the process of government itself must be 
transformed, as well as the way we think about government.
    The business world has had to learn a similar lesson. One 
of the consequences--and, we believe, distinct benefits--has 
been a pronounced shift in the way companies are organized from 
a product focus to a customer focus. This development has 
produced many benefits including a deeper real-time 
understanding of what the customer needs and wants. At the same 
time, however, it has revealed a whole new set of challenges 
for management.
    For example, not so long ago, if a business wanted to 
conduct a transaction with its financial institution, its 
options were unlimited, so long as it took place at a branch 
office Monday through Friday from 10 until about 3. Customer 
expectations, though, have changed greatly since then, 
requiring organizations to be ready to conduct business 24 
hours a day, 7 days a week, across all channels. And by all 
channels I mean the Web, e-mail, call centers, field agents, 
branch offices, what have you.
    This revolution in service was accomplished through the 
effective deployment of networked information technologies, 
which are enabling forward-thinking businesses to track and 
coordinate each interaction, each customer's interaction, 
recognizing and acknowledging customers every point of contact 
while maintaining a seamless, ongoing dialog. These lessons 
indeed don't just apply to business. They also offer important 
insights for government organizations as well as a glimpse of 
the promise of e-government in the future.
    As businesses have transformed to adapt to this new multi-
channel world, four concepts have emerged as being quite 
fundamental in this process. We believe government would 
benefit from incorporating them into their own e-government 
blueprint.
    First, effective e-government solutions have been designed 
around the citizen. Just as businesses have dramatically 
improved their performance, governments can do the same by 
focusing first and foremost on the citizen.
    Second, solutions that have embraced the full range of 
information technology and communications capabilities have met 
with the most success. While the Internet has created many 
efficiencies, it is worth remembering that still today 
consumers and constituents communicate with organizations 
through a broad range of channels. So any solution should take 
that into account.
    Third, governments are recognizing that reorganization can 
best be done through the use of best of breed suppliers in such 
a way that information flows can be enhanced.
    Fourth, administrations are using e-government as a tool to 
train, retrain and attract the best government employees, which 
will in turn secure the future ability of them to continue to 
serve constituents in the best possible way.
    Finally, I would like to say that we believe the 
administration's efforts in the e-government area have really 
been very commendable. Mark Forman's effort with regards to 
these 24 quicksilver projects really have been very good in 
that they've focused attention on pilot projects such that deep 
learning can be pushed through organizations to really promote 
the kind of change and transformation that will truly enhance 
e-government. And so we think it's a good effort and we think 
investment in those efforts are worthy.
    So, to sum up, ITI and Siebel Systems would like to thank 
you for allowing us to share our views; and we look forward, as 
an association, to playing a valuable, hopefully useful role in 
working with the government and legislators to make the dream 
of e-government a reality.
    Mr. Davis of Virginia. [presiding]. Thank you very much.
    [The prepared statement of Mr. Gann follows:]

    [GRAPHIC] [TIFF OMITTED] T6062.042
    
    [GRAPHIC] [TIFF OMITTED] T6062.043
    
    [GRAPHIC] [TIFF OMITTED] T6062.044
    
    [GRAPHIC] [TIFF OMITTED] T6062.045
    
    Mr. Davis of Virginia. I didn't mean to walk out on your 
testimony, Ms. McGinnis, but we had a vote down the way in 
Commerce, and I had to go vote.
    So, Mr. Baker, thank you for being with us.
    Mr. Baker. Thank you, Mr. Chairman and Mr. Turner. Thank 
you for inviting me to testify before the committee today.
    I would like to thank my employer, CACI International, a 
fine Northern Virginia company, for giving me the time to 
testify here today but make clear that the comments are 
strictly my own.
    I was the Chief Information Officer for the Department of 
Commerce for 3 years, beginning in 1998. During that tenure, I 
was an outspoken proponent for the creation of a Federal CIO 
for the reasons that I'll discuss.
    For a private sector IT executive coming into the Federal 
Government, the problems with government IT are readily 
apparent: There is no cohesive strategy, there are too many 
points of control, and there is a nearly complete lack of 
standards and processes.
    These root causes lead to fundamental, long-term issues: 
There is tremendous duplication of effort and cost; and there 
is widespread, poor performance in critical areas including 
information security, disaster recovery, privacy protection, 
runaway programs, e-government progress--which we will talk 
about today, I'm very confident--service levels to internal 
customers and services to citizens and businesses.
    In my view, the need for a Federal CIO with sufficient 
management power to drive change across all aspects of 
government IT is compelling.
    I've already mentioned cost. I believe that at least 25 
percent of agency IT funds are wasted each year due to the 
tremendous duplication of effort caused by the ad hoc 
infrastructure.
    I should note that without empowered IT management the 
infrastructure of the Federal Government has grown in a chaotic 
and ad hoc fashion. In my written testimony I've included four 
specific examples from the Commerce Department that are 
representative of the issues that exist on a much larger scale 
across the Federal enterprise. Commerce, like the rest of the 
Federal Government, operates far too many data centers, 
networks, Web servers, help desks and a variety of other 
infrastructure items. Consolidation just inside of Commerce 
would save hundreds of millions of dollars a year, and 
consolidation across the Federal enterprise would save billions 
of dollars a year, which, frankly, could be applied to better 
purposes like e-government.
    Second, in this ad hoc structure, many IT organizations 
don't have sufficient focus or expertise to adequately address 
critical items like information security, disaster recovery and 
privacy protection. Because these types of problems are often 
viewed as nonessential to the accomplishment of the local 
mission of the program office, policy issued by OMB, department 
CIOs and others regarding mandatory information system 
protections has been widely ignored for years.
    Third, in the chaotic structure of government IT 
management, it creates most of the problems encountered in 
Mark's efforts and others' efforts to improve responsiveness to 
citizens and create cross-government solutions.
    Mark Forman's success at spurring the 24 cross-agency 
initiative in his position at OMB is undoubtedly the best 
argument for the creation of a strong Federal CIO. The first 
technologist to hold such a position at OMB, Mark sees the 
issues from a governmentwide perspective and in just over 1 
year has made major progress in examining duplicative efforts 
and getting agencies to work together. More importantly, 
utilizing the existing authorities of OMB, Mark has been able 
to compel a level of agency compliance with his programs that I 
would have characterized as impossible less than 2 years ago.
    But addressing all of the government's IT issues would take 
both strong senior leadership and the creation of an effective 
management structure through which change can be compelled. 
While this legislation is a good first step, there are many 
steps further required from this point.
    Mr. Chairman, private sector companies have established 
strong central CIOs for one reason, profitability. Reducing 
cost, avoiding risk and better serving the customer are 
compelling profitability issues that have forced private sector 
conditions to deal with their internal politics and create a 
strong central CIO. Though profit is not a motivation for 
change in the Federal Government, cost reduction, risk 
reduction, customer satisfaction are.
    That's why we need a Federal CIO. We need somebody with the 
charter to look at Federal Government IT as an enterprise 
issue, to find the common problems and enforce common 
solutions, to convince all parties that change is required and 
to compel adherence for the good of the enterprise. We need a 
strong, empowered leader who can galvanize the support 
necessary from both the administration and the Congress to 
address the hard issues, to find solutions to the root causes 
of the Federal Government's IT malaise.
    Mr. Chairman, Mr. Turner, thank you for providing me the 
time to present my views on this important issue; and I look 
forward to your questions.
    Mr. Davis of Virginia. Thank you very much.
    [The prepared statement of Mr. Baker follows:]

    [GRAPHIC] [TIFF OMITTED] T6062.046
    
    [GRAPHIC] [TIFF OMITTED] T6062.047
    
    [GRAPHIC] [TIFF OMITTED] T6062.048
    
    [GRAPHIC] [TIFF OMITTED] T6062.049
    
    [GRAPHIC] [TIFF OMITTED] T6062.050
    
    [GRAPHIC] [TIFF OMITTED] T6062.051
    
    Mr. Davis of Virginia. Let me start with GAO and OMB.
    There have been many complaints about OIRA and agency 
information resources management. S. 803 doesn't address OIRA's 
job. Instead, it carves out pieces of the information 
management puzzle and it identifies it as electronic 
government. If this bill becomes law, Congress will have 
created two overlapping information management structures. How 
do we reconcile this? Any thoughts?
    Ms. Koontz. Well, as--our major concern with the structure 
that's created under S. 803 is that it does create a situation 
where responsibility and accountability for the information 
functions are shared between the E-Gov administrator and the 
administrator of OIRA, who already has these responsibilities 
under the PRA.
    One alternative to doing this is to create a single 
position that would have responsibility for the full range of 
information functions and would have that as their exclusive 
responsibility. That could be a CIO, and I'm sure there are 
other models that could be followed as well.
    Mr. Davis of Virginia. Mr. Forman.
    Mr. Forman. When the Office of IT and E-government was 
created, we took a teamwork approach with it in OMB; and I 
think we've been tremendously successful in working the team 
approach between the information technology and policy issues 
that relate to OIRA's role and my role, directing the Office of 
IT and E-government.
    I think you have to keep in mind some of the changes in the 
world associated with putting things on-line. There are 
information technology policy issues that are maybe little 
``i'' and big ``T'', and there are some that are big ``I'' and 
little ``t,'' but in the end we know that the Internet offers 
us a tremendously new way to interface with the citizens, and 
those won't necessarily have information policy issues. So 
there's got to be overlap, and I think our approach has been 
successfully to apply a teamwork as opposed to try and parse 
that up into two different groups and then have to duke it out 
or have to figure out how we work together as a team.
    Mr. Davis of Virginia. OK. Section 207 of the legislation 
contains an information collection and dissemination management 
structure for the Federal Government. Do you have any thoughts 
on the timeframe that's put forward in the legislation for 
centralizing reporting on information collection by Federal 
agencies?
    You expressed some concern about the interagency committee 
formulating the recommendations to an e-government 
administrator based on past failures in this area. In your 
view, what will it take to make this committee a success, or is 
there an alternative structure that might be considered as we 
review the legislation?
    Ms. Koontz. Section 207 deals with a very important issue, 
and that is dealing with accessibility of government 
information to the public. We think it's quite reasonable that 
the first step that could be taken here would be to form an 
interagency committee and study what it would take in order to 
better organize and categorize government information.
    The thing I would like to underscore about this particular 
provision is the difficulty of implementing this kind of 
initiative. Just as the Senate report that accompanies S. 803 
talks about previous initiatives that have really provided sort 
of mixed results, and it will be really important for the 
interagency committee to look at these lessons learned and to 
incorporate it into their plans for moving forward.
    The complexity of this undertaking and the difficulty in 
getting agencies to implement something like this, I think it's 
very difficult to say how long it would actually take to 
accomplish all the things in Section 207. But, at the same 
time, I do understand the need to put definite timeframes on 
initiatives in order to get things to move forward and hold 
people accountable for them.
    Mr. Davis of Virginia. OK. Mr. Forman, S. 803 largely puts 
into statute OMB's current IT organizational structure and the 
sharing of IT duties between the administrator of the Office of 
Electronic Government and the administrator of OIRA. What 
challenges have you faced in addressing this sharing of duties 
and how do you overcome them?
    Mr. Forman. I really haven't faced any challenges. John 
Graham and I get along terrifically well. Our staffs get along 
terrifically well and work very closely as a team. As Mark 
Everson said, maybe that's a function of the personalities; and 
we are very sensitive of the fact that you can't run a 
government or an organization just based on personalities. So 
there may be issues and we believe it's worthwhile to discuss 
those as we look toward the future, what should that permanent 
structure be.
    Mr. Davis of Virginia. What do you think some of those 
issues might be? If you didn't get along, what could you see as 
potentials?
    Mr. Forman. Well, I could see potentially different issues 
with respect to the question of certain information policy 
issues related to what content should be presented at the Web 
site; how to reduce the paperwork burden, for example, by 
leveraging electronic reporting versus by leveraging the data 
items that are actually reported on. And today by leveraging 
the same staff it's very easy to work through those issues.
    Mr. Davis of Virginia. OK. What benefits do you see in 
establishing the CIO Council in statute? Do you think the 
Council has the resources that it needs to fulfill its mission?
    Mr. Forman. Well, we've established the CFO Council in the 
statute. There are four basic management councils that we're 
using to associate with management agenda and support the 
President's management council. So it does give us some 
parallel structure with the CFO Council.
    The intent is--in the past, we've relied on kind of a pass-
the-hat approach to fund the CIO Council and in the future we 
want to incorporate that into the actual budget request of the 
President. So it's consistent with that.
    Mr. Davis of Virginia. OK. FISMA was included in H.R. 5005. 
You can appreciate we had to work quickly to negotiate 
provisions that would be acceptable to other committees with 
limited jurisdiction. In your testimony, you made reference to 
a concern that OMB has with the current version of FISMA. Could 
you elaborate? I mean, we still have to go through a conference 
on this, and we want to----
    Mr. Forman. Sure.
    Mr. Davis of Virginia. --we may have more flexibility in 
the conference than we did getting it through the House.
    Mr. Forman. I understand.
    In your original version of the bill, appropriately you 
recognized the policymaking responsibility has to rest at a 
governmentwide level. Much like the other issues that we're 
addressing today on why you need a governmentwide focus for e-
government, we have a similar issue with security; and it would 
be very difficult to have one department essentially setting 
the policies and try to enforce that in others. We've seen even 
with the standards process concerns about NIST or the Secretary 
of Commerce trying to issue standards and get compliance from 
other departments.
    The appropriate structure we believe is what you laid out 
in your original version of the bill with that resting at OMB 
under the Director's authority.
    Mr. Davis of Virginia. OK. I thank you.
    Pat McGinnis, let me ask a couple of questions.
    A couple of years ago, the Council recommended the 
establishment of a Federal CIO. Is this still your position, 
and do you think S. 803 helps or hinders the establishment of a 
Federal CIO? And if you could elaborate on that.
    Ms. McGinnis. S. 803 is really consistent with our 
recommendation. We recommended that the Deputy Director for 
Management of OMB be designated the Deputy Director for 
Management and Technology, to be clear that this is an 
overarching, strategic part of the management of the Federal 
Government and that an Office of Electronic Government be 
created which would be headed by someone who we gave in our 
recommendation the title Federal CIO. It's very much the 
concept of the office as provided in S. 803, and we did 
envision that the Office of Information and Regulatory Affairs 
would continue, but that there would be an important need for 
coordination there.
    Mr. Davis of Virginia. OK. You also mentioned that the bill 
could be strengthened by the addition of language relating 
performance management and evaluation more explicitly to the 
Government Performance and Results Act, and you call for a road 
map for the Federal Government's e-government strategy that 
clearly outlines where we are going, what the priorities are, 
action steps required, etc. Could you elaborate on how the two 
bills can better address these two areas?
    Ms. McGinnis. Well, I think in the case of relating to 
GPRA, simply making that connection explicitly in the 
legislation would be desirable so that when the agencies are 
putting together their strategic plans they are focusing on 
these performance measures and especially these as cross-
cutting performance measures. So that's a simple change in the 
bill. The road map doesn't necessarily need to be required in 
the legislation.
    It strikes us as a very important management tool to bring 
people together from across agencies and across sectors to go 
through this process, and I think Mark would welcome this and, 
in fact, is really engaged in it. We would just like to see it 
mapped out in a very explicit way: Where are we in terms of 
some of the problems that Roger has suggested with 
infrastructure and security and privacy, where do we need to 
go, what resources do we have, and what's the path. It's just 
logical.
    Mr. Davis of Virginia. OK.
    Mr. Forman. Mr. Chairman, if I may.
    Mr. Davis of Virginia. Sure.
    Mr. Forman. I think this is one of the key issues that I've 
seen since I've been in my job a little over 15 months, and 
it's one of the reasons we focused on the Federal enterprise 
architecture. You know, GPRA was put together to focus on 
program budgets--and we do. We've got several thousand or over 
1,000 programs in the Federal Government. But when we look at 
the way we've set up agencies and organizations there are clear 
functions. As we've tried to lay out the functions of the 
agencies and departments in the business reference model, we've 
found that we'll have to figure out this road map or this 
relationship between programs and the business functions of a 
department.
    So disaster management, for example, we've looked at having 
perhaps three core functions, and we call them subfunctions. We 
can lay out the performance measures for disaster planning, 
disaster response, but then you overlook or overlay that 
against the programs. We have grant programs, and the grant 
programs in some cases is supposed to help with disaster 
planning. But the business function that we have as a 
government is managing a grant program, and so that overlay or 
that road map has another set of performance measures.
    Mr. Davis of Virginia. Thank you. I am going to yield to 
Mr. Turner for questions. I have got to cast another vote in 
the Commerce Committee, and I'll be right back.
    Mr. Turner [presiding]. Thank you, Mr. Chairman.
    Mr. Forman, I would like to have you elaborate a little bit 
on the position that OMB took in the Senate regarding the 
Federal CIO. I mean, it appears to me that the opposition to a 
Federal CIO centered more on a turf battle than it did 
substantive objections to that position; and I would like for 
you to really lay out for us what the OMB position is on that 
and give me a clear indication of why we ended up with what we 
now have after negotiations in the Senate.
    Mr. Forman. Well, the first part of the puzzle is trying to 
figure out what's in a name. So whether we call it an 
administrator, an associate director or a CIO, the key thing to 
focus on is what are the functions. And, indeed, when Mitch 
Daniels crafted my job, he took the job functions right out of 
a GAO report--a very good report I'd ask you to take a look at, 
if you haven't already done so--that says what the best 
practices for CIOs are and what should their responsibilities 
be. And that was the basis for coining my job. I think that's 
the basis for a lot of responsibilities certainly in our 
negotiations in working with the Senate side on what that 
administrator, associate director, CIO would do.
    Now, the question I think remains, where do you put it in 
the executive office of the President. And my power, my ability 
to drive change absolutely is associated with my ability to 
affect the budgets, pure and simple. You hear the same thing in 
any large corporation. If you can get control over the budgets 
you can get control over the investments and the 
infrastructure, etc.
    So it was critical for us that my position reside within 
OMB so that we can work the management and budget integration, 
the same reason that OMB was set up and structured in general 
in the legislation, the Clinger-Cohen Act and other authorizing 
legislation for OMB. In other words, we know that we invest 
redundantly in lots of information technology; and we know that 
there are ways to fix that. It's not rocket science. It's 
management. But in order to make that occur you have to be able 
to work the resources both within a department and across 
departments.
    I compare my situation to my counterpart in the U.K., 
Andrew Pinder. My daily discussions, if you will, are with 
different departments to get them to go along. His daily 
discussions are with his budget director to get his budget 
director to go along with a governmentwide or cross-agency 
approach. That's not an issue for me. So any other position, 
outside of being within the Office of Management and Budget, we 
would not be able to have that management budget decision 
integration. And that's how we ended up in our position, at 
least.
    Mr. Turner. Well, I'm not sure you have convinced me. It 
does seem that there are some very obvious things that are in 
that Senate bill that detract from the stature of the position 
that was created. For example, you would think that the--a 
Federal CIO or a person with that responsibility should clearly 
be designated as the Chair of the CIO Council; and yet the only 
way you get that, as I understand it--and I guess this is 
current law--is you're designated as the Chair by the Deputy 
Director for Management, who is actually the Chair.
    It seems that when you look at the--and you're familiar, of 
course, with the debate that occurred in the Senate over Senate 
confirmation. Senate confirmation always seems to add some 
stature to a position. And I believe I'm correct that the--
under the current law, the administrator of OIRA is a Senate-
confirmed position; and yet we did not make this--I gather 
you're opposed to making this position Senate-confirmed in the 
Senate.
    So it just seems that there has been a diminution in the 
status of the position which I think most observers, no matter 
what they call the individual--I mean, we say, many times, 
maybe it doesn't matter what the name is, it's just what your 
statutory responsibilities are. But, in truth, in fact, the 
title ``Chief Information Officer'' has a meaning in the 
private sector that gives that position status; and yet we seem 
reluctant to give that title to an individual within 
government. So I'm a little bit concerned that we have 
diminished the role in several particulars that I regret that 
has occurred in the Senate.
    I know Mr. Baker is a strong adherent to a strong Federal 
CIO. Do you agree with me on my observations?
    Mr. Baker. Mr. Turner, I would tell you that 18 months ago 
I 100 percent agreed with you. I agree with Mark on one key 
component, and that is the ability to leverage the budget is 
everything inside a government. His ability to apply a carrot 
and a stick to programs inside the government to compel 
adherence has been very vital to his success.
    The key--I believe you hit on the other key thing, though, 
which is stature. The person must be viewed as carrying a 
substantial amount of weight, both by the Congress and by the 
agencies.
    You know, I haven't worked in the environment that Mark is 
in, but I remember the John Koskinen period.
    And John did a very good job of going around to the 
Secretaries and making certain that they were focused on Y2 K 
because of his stature inside of the organization and the 
knowledge that he had the full attention of the President on 
the Y2K issue.
    I think that full attention is a key thing, but I also 
believe the budget is important. I think if I were to tell you 
my thinking today on this, knowing what I know today, it would 
be yes probably inside of OMB, but probably at least at a par 
with the Deputy Director for Management, if not, as Ms. 
McGinnis said, actually being the Director of Management with 
the technology focus. It must be--in my view, it has to be 
someone who has managed technology before. We have had lawyers 
in the DDM job who have said, my job is to be the Federal CIO, 
and they didn't get it.
    Mr. Forman. I would ask to think of a couple things here. 
First of all, the statute that we confer on my position, or for 
that matter any of the other management agenda elements, is how 
we are managing the Federal Government, and we treat the five 
management agenda leaders as equals, and that's important.
    Also a key part, one of the reasons why I think it's 
important, you know, as Mark laid out, to understand, e-
government in and of itself is not going to change this 
government. It's not going to fix the human capital issue we 
have. It's not going to fix the performance-based budgeting or 
performance management issue that we have. But, by the same 
token, they all go hand in hand. They're all interrelated. I 
think Mark understands that and has brought tremendous tools 
and capabilities to the administration of the government in 
using those five key levers to improve management.
    So there is some danger in focusing on just one management 
agenda item and ignoring, for example, the human capital issue, 
you know, but by the same token I would never ask for my own 
department--you know, that would not be productive. And by the 
same token, I think it makes sense Director James heading up 
the human capital initiative, because that is their focus. 
There is a substantial body of law and authority that goes 
along with that.
    One of the key issues I think to be sensitive to is while 
in government management, management issues vary with the 
times, with changes in society and technology. What may be 
right for this period may not be right 2 years from now. And so 
I think you also have to consider it's always easier to lock 
things into statute than it is to change them or take them out 
of statute. So how much of that you want to actually lock in in 
terms of titles versus authorities is a careful balancing act, 
and we are very willing and open to working with the committee 
to work through that.
    Mr. Turner. Mr. Baker, one other question for you. From 
your experience as the CIO at Commerce, do you have any 
suggestions to offer for this legislation now that we have put 
the CI O Council in statute? Any other improvements that we 
might make?
    Mr. Baker. I was almost afraid that you would ask that one. 
I just tell you that, from my experience, the problem with the 
CIO Council is that it doesn't have any authority. A good 
example. It was my committee--my Privacy Committee of the CIO 
Council that brought the privacy impact assessments out of IRS 
and made them a CIO Council--I guess I would call it a policy 
or recommended process. We are able to give them some altitude, 
but in no way could we compel their use.
    I think the fact that they are now in the legislation is a 
good example of the inability of the CIO Council to make any of 
their recommendations actually stick in any of the agencies. 
It's a volunteer organization. Following anything that it--any 
of its recommendations is strictly voluntary inside of the 
agencies.
    I believe it's good to bring the CIOs together. My 
preference would be to have an organization that is part of the 
management structure for the Federal CIO, someone that both 
brings recommendations on how to manage, but also is to an 
extent beholden to the Federal C IO.
    I would just tell you that one of the biggest problems with 
the CIO Council was getting people to show up. There are only a 
few CIOs that really put a lot of effort into what the CIO 
Council is doing, And I think it's good for them in their 
careers, but it's nowhere in the performance plan of a CIO in 
an agency.
    I would like it as an organization, but as Mark said, 
codifying things in the statute makes them more difficult to 
change in the long term. I'm afraid to say I'm not sure it's 
productive enough to be something that you put in statute right 
now with the way that it operates today. I just didn't make any 
friends out of a lot of people I've worked with that statement, 
but that's what I think.
    Mr. Turner. So I gather that among the problems you 
mention, if we had a stronger CIO to chair the Council, the 
Council members might have a little more interest in attending 
the meeting and feel like they had somewhat greater empowerment 
to be able to accomplish some of their goals.
    Mr. Baker. Right. I also believe it's important somewhere 
along the path to give the Federal CIO some level of management 
control over those CIOs, whether it's hiring and firing, 
whether it's a yearly report to the Department head on how's 
your CIO performing, or whether it's 50 percent of their 
performance basis.
    In my written testimony, I can refer you to General Motors 
and IBM. You know, they've wrestled with the strong central CIO 
and dual reporting, and I think that's a way to think about it. 
We also thought--we also have implemented at Commerce that same 
sort of thing. If you--you need to have a management structure 
if you really want something to change.
    Mr. Forman. Mr. Turner, if I may. We have got, I think, 
some changes under way with the CIO Council. I guess the terms 
that I used to hear right before and when I came to government 
was CIO Council was a hobnobbing group. You know, it's a few--
group of folks that control the whole thing. And I think there 
was that general sentiment among a lot of the CIOs. Attendance 
has always been good at the meetings we've had at either every 
quarter or every other month, but now there is a focus on how 
can we do something with the committee, and hence we 
restructured it into three groups, a group that works on work 
force, IT work force, and we have, as you know, some major, 
major issues there. And I think they have been doing an 
increasingly good job, but we are going to look at this as one 
of the major budget issues, and we may need to do more in terms 
of a leadership role on IT work force. It's one of the things 
that we highlighted in our testimony that is appropriately 
highlighted in the bill.
    Another committee is Best Practices. And one thing about 
technology folks, and you see this elsewhere, if they come up 
with good ideas, they want to share those ideas, and they want 
to be annointed for those ideas. And we have given them that 
forum, and we can take advantage of that. I like Rosabeth Moss 
Canter's concept: We shouldn't call it best practices; we 
should call it useful practices, because that's really what 
they are. And so getting that word out is important.
    And the third is the Architecture Committee, and that's 
where we really are going to see some work. And we, both Norm 
Lorentz, our Chief Technology Officer, and I, have talked about 
it extensively. How do we organize that and get a process set 
up for agreeing to key standards?
    And so we are looking at essentially at, first round, some 
of the key security-related components, if you will, that will 
standardize on. It's a little different than the standards that 
NIST develops. It's more adoption of standardized components. 
That's going to be a different role for the CIO Council, but 
they are all actively engaged, and that's where they want to 
take the organization as we would like to see that.
    Mr. Turner. Thank you, Mr. Forman.
    I didn't know, perhaps our witnesses had comments on 
subjects we've been discussing here. I would invite your input 
if you have thoughts on it. Otherwise, that concludes my 
questions, Mr. Chairman.
    Mr. Tom Davis of Virginia [presiding]. Thank you very much.
    Ms. McGinnis, let me get back to you. I know your support 
for the Digital Tech Corp Act, which I think is very 
thoughtful. Do you think passing S. 803 absent complementary 
legislation for the IT Federal Government work force would 
diminish the overall effectiveness of this legislation?
    Ms. McGinnis. Well, I did suggest that strengthening those 
work force provisions by considering perhaps adding the digital 
tech corp to this bill, if it were possible to do that in the 
time remaining. I mean, my main caution is--or message is, you 
know, let's get this passed in this Congress if possible, 
because it is a useful framework, and it does address the work 
force issues, although it certainly does not go as far as we 
need to. And I think everyone here would agree with that. So I 
was suggesting that perhaps this could be added to strengthen 
the bill.
    Mr. Tom Davis of Virginia. Thank you.
    Mr. Gann, let me ask. S. 803 as it's currently drafted 
doesn't contain many provisions that would improve the IT 
acquisition process. I would like to include provisions to 
expand the existing share and savings legislation, to allow for 
cooperative purchasing on the GSA IT schedules, to remove the 
Trade Agreements Act for IT products. In your view, will these 
additions facilitate the rapid employment of technology by 
government?
    Mr. Gann. Right. I think you have brought a very important 
set of issues. Speaking on behalf of the Information Technology 
Industry Council, I think there is a great deal of concern in 
the association and its members regarding the Trade Agreements 
Act. There is a view that this act has served to be a 
discompetitive incentive for a lot of our organizations in that 
it puts all kinds of burdens, paperwork burdens, compliance 
burdens to comply with the act, particularly at the time when 
information technology companies are so competitive 
internationally. So we think the costs of that system outweigh 
the benefits.
    Mr. Tom Davis of Virginia. Thanks.
    Mr. Baker, in your statement you paint a pretty dismal 
picture of the current Federal IT environment in which 
substantial waste and inefficiency is common. What actions 
would you suggest that the current administration take to 
address these problems? If you would rattle off several.
    Mr. Baker. I would think that from my testimony that you 
could read that I'm a very strong proponent of management. 
Again, if you really want something to change, I think you have 
to manage that change. Strengthening a Federal CIO with agency 
CIOs, having a reporting relationship with that. I will just 
tell you that a power that I think would be great for you to 
have to give to Mark is the ability to take the savings from 
some consolidations and use them for e-government and things 
that he views as more productive.
    You know, going back to your share and savings point, there 
are a lot of things that the private sector would probably like 
to do. Let's say a good private sector company might decide 
that they could do networks much more cheaply in the Commerce 
Department than the Commerce Department does them. In the past 
it's been difficult for the agency to see a benefit from doing 
a share and savings, and I think that's a primary thing that 
you have to find is where are the carrots for the agencies and 
for others to get it done.
    I would just go back to the major piece. It's a management 
issue. Those thousands of different organizations inside of 
government don't see it to be in their benefit to have a common 
enterprise architecture or to give up power to a more central 
authority on the infrastructure issues. You have to overcome 
that fundamental issue, and that by itself is a bit of a 
management challenge.
    I wish I had a real solution for you, Congressman. It's a 
tough problem.
    Mr. Tom Davis of Virginia. I understand.
    You also recommend against making the CIO Council 
statutorily based.
    Mr. Baker. Right.
    Mr. Tom Davis of Virginia. Could you please explain what 
problems you would foresee if the Council is established in 
law?
    Mr. Baker. Well, I guess a major reason for doing it, I 
believe, is to provide them some funding. And right now, as Mr. 
Forman said, it's a pass-the-hat funding for this.
    It does--CIO Council does productive things. It brings good 
practices to light for use across government, and it is a good 
forum for getting together and exchanging information. But 
again, I see its primary use really being advising that Federal 
CIO and being a forum for pulling attention to certain issues.
    The issue in making it statutory is I think it becomes more 
difficult for it to be more at that point if it's in statute as 
a certain thing. And frankly, as Mark pointed out, when he came 
in, he saw a need for certain changes. It may well be that 
those changes need to continue, and if it's in legislation, it 
is obviously much more difficult to change.
    I don't think it's such a valuable institution today that 
it's something that needs to be created in statute, and I'm not 
sure the statute really does anything more for it than give it 
a funding pool, and there might be other ways to do that.
    Mr. Tom Davis of Virginia. OK. All right. I think those are 
my questions.
    Mr. Turner, do you have any other questions?
    Anything else anyone would like to add?
    Mr. Gann. Mr. Chairman, on behalf of the association, I 
also wanted to address one other point as it relates to 
procurement. We felt that the work that you and your committee 
had done on H.R. 4629 to establish a technical innovations 
program was really very sound, and we think that using the same 
model language more broadly in any government would indeed be a 
very good thing.
    Mr. Tom Davis of Virginia. Thank you. In fact, I was going 
to ask you what you thought of that. Anybody else agree with 
that? Are you alone there? You know what we are talking about?
    Mr. Forman. No.
    Mr. Tom Davis of Virginia. That's OK. I know what you are 
talking about. Go ahead. I appreciate it.
    Mr. Gann. Would you like me to continue?
    Mr. Tom Davis of Virginia. Please.
    Mr. Gann. Well, I think the big issue is there are huge 
benefits to putting in place quick pilots such that quick 
learning could take place that can be pushed out throughout 
departments, and I think that's very helpful. I think the way 
you've increased the threshold for allowing slightly larger 
dollar procurements to be put in the fast-track process is a 
good thing, so we applaud you and thank you.
    Mr. Tom Davis of Virginia. Thank you very much. Thank you 
all very much for being with us today. We are going to see what 
we can get done before the end of this Congress, and I think we 
have made an appropriate record here. I thank Mr. Turner for 
his thoughtful comments and sponsorship legislation. If you 
have any other thoughts you want to add, we will give you 10 
days, keep the record open, if you would like to come back and 
reflect on anything you have said, and the briefing paper will 
be made part of the permanent record, and these proceedings are 
closed. Thank you very much.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]


</pre></body></html>
